u.s.   DEPARTMENT OF JUSTICE 

 ANNUAL SPECIAL-PURPOSE 

  FINANCIAL STATEMENTS 

       FISCAL YEAR           2012 

        u.s.  Department of Justice
       Office of the Inspector General
                Audit Division

            Audit Report 13-02 

             December 2012 

                U.S. DEPARTMENT OF JUSTICE

                 ANNUAL SPECIAL-PURPOSE

                  FINANCIAL STATEMENTS

                      FISCAL YEAR 2012


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


      This audit report contains the Annual Special-Purpose Financial
Statements, also known as the Closing Package Financial Statements, of the
U.S. Department of Justice (Department) for the fiscal years (FY) ended
September 30, 2012, and September 30, 2011. The Office of the Inspector
General (OIG) performed the Department’s audit in accordance with auditing
standards generally accepted in the United States of America. The audit
resulted in an unqualified opinion on the FY 2012 special-purpose financial
statements. An unqualified opinion means that the financial statements
present fairly, in all material respects, the financial position and the results
of the entity’s operations in conformity with U.S. generally accepted
accounting principles. For FY 2011, the Department also received an
unqualified opinion on its special-purpose financial statements (OIG Report
No. 12-04).

      The Department’s special-purpose financial statements were prepared
in accordance with Volume I, Part 2 – Chapter 4700 of the U.S. Department
of the Treasury’s Treasury Financial Manual. Their purpose is to assist the
U.S. Department of the Treasury in preparing the U.S. Government Financial
Report, by reclassifying the Department’s general-purpose financial
statements into a standard format that will be consolidated with other
federal agencies, and reporting the Department’s intragovernmental
balances by federal agency to facilitate elimination of transactions between
federal agencies.

       The Office of the Inspector General did not identify any significant
deficiencies in internal control over financial reporting or instances of
non-compliance in the Independent Auditor’s Report on Special-Purpose
Financial Statements.

      The OIG is not independent with respect to amounts pertaining to OIG
operations that are presented in the financial statements. However, the
amounts included for the OIG are not material to the Department’s financial
statements, and the OIG is organizationally independent with respect to all
other aspects of the Department’s activities.
